<html>
<title> - FROM YELLOWSTONE'S GRIZZLY BEAR TO THE CHESAPEAKE'S DELMARVA FOX SQUIRREL--SUCCESSFUL STATE CONSERVATION, RECOVERY, AND MANAGEMENT OF WILDLIFE</title>
<body><pre>[Senate Hearing 115-424]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-424

   FROM YELLOWSTONE'S GRIZZLY BEAR TO THE CHESAPEAKE'S DELMARVA FOX 
  SQUIRREL--SUCCESSFUL STATE CONSERVATION, RECOVERY, AND MANAGEMENT OF 
                                WILDLIFE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                            OCTOBER 10, 2018

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        



                                                        S. Hrg. 115-424
 
   FROM YELLOWSTONE'S GRIZZLY BEAR TO THE CHESAPEAKE'S DELMARVA FOX 
  SQUIRREL--SUCCESSFUL STATE CONSERVATION, RECOVERY, AND MANAGEMENT OF 
                                WILDLIFE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 10, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 33-666 PDF                 WASHINGTON : 2018             
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 10, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Kennedy, John, Deputy Director, Wyoming Game and Fish Department.     5
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Barrasso.........................................    27
        Senator Carper...........................................    29
McCormick, Mike, President, Mississippi Farm Bureau Federation...    33
    Prepared statement...........................................    35
    Responses to additional questions from Senator Barrasso......    44
    Response to an additional question from Senator Carper.......    45
Dohner, Cindy, Cindy K. Dohner, LLC and former Regional Director, 
  U.S. Fish and Wildlife Service.................................    46
    Prepared statement...........................................    49

                          ADDITIONAL MATERIAL

Letter to Hon. Dan Ashe, Director, U.S. Fish and Wildlife 
  Service, from the Center for Biological Diversity et al., June 
  26, 2014.......................................................   219
Letter to Hon. Matt Mead, Governor of the State of Wyoming, Re: 
  Please intervene to stop Wyoming's grizzly bear hunt, from Tom 
  Mangelsen, Images of Nature, et al., May 18, 2018..............   222
Letter to Senators Barrasso and Carper, Re: October 10, 2018 
  Oversight Hearing--``Successful State Conservation, Recovery, 
  and Management of Wildlife,'' from Family Farm Alliance, 
  October 24, 2018...............................................   228
Large Carnivore Conservation. Integrating Science and Policy in 
  the North American West, edited by Susan G. Clark and Murray B. 
  Rutherford, The University of Chicago Press, copyright 2014....   236
Crow Indian Tribe, et al., Plaintiffs, v. United States of 
  America, et al., Federal Defendants, and State of Wyoming, et 
  al., Defendant-Intervenors.....................................   276
Wildearth Guardians, a non-profit organization, Plaintiff, vs. 
  Ryan Zinke, as Secretary of the Department of the Interior; the 
  United States Department of the Interior, a federal department; 
  Greg Sheehan, as acting director of the U.S. Fish and Wildlife 
  Service; and the United States Fish and Wildlife Service, a 
  federal agency, Federal-Defendants.............................   298


   FROM YELLOWSTONE'S GRIZZLY BEAR TO THE CHESAPEAKE'S DELMARVA FOX 
 SQUIRREL--SUCCESSFUL STATE CONSERVATION, RECOVERY, AND MANAGEMENT OF 
                                WILDLIFE

                              ----------                              


                      WEDNESDAY, OCTOBER 10, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Rounds, Ernst, Cardin, Whitehouse, 
Gillibrand, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today the Committee is going to examine several of the 
important roles that States play in successful conservation, 
recovery, and management of wildlife. Across the Nation, State 
wildlife and conservation agencies are on the front lines of 
preventing species from becoming endangered, of recovering 
threatened and endangered species, and of preventing the spread 
of invasive species.
    States--not Federal agencies--have primacy over wildlife 
management. States have made significant investments in 
research and on the ground conservation.
    According to the Association of Fish and Wildlife Agencies, 
States employ over 50,000 wildlife professionals, including 
more than 11,000 degreed wildlife biologists, 10,000 wildlife 
law enforcement officers, and 6,000 employees with advanced 
education degrees. They also leverage the efforts of over 
190,000 volunteers.
    States contribute and carry out more than $5.6 billion in 
conservation efforts. These enormous resources supplement over 
11,000 Federal employees and $2.35 billion in annual spending 
by the U.S. Fish and Wildlife Service and the National Marine 
Fisheries Services.
    In Wyoming, we know the importance of responsible 
environmental stewardship and habitat management. Our wildlife 
and the habitat that our States provide is diverse and 
abundant.
    The Wyoming Game and Fish Department has done a tremendous 
job in safeguarding Wyoming's wildlife resources for present 
and future generations. Our wildlife biologists partner with 
others in the region and with Federal agencies to successfully 
recover numerous threatened and endangered species such as the 
bald eagle, the peregrine falcon, the gray wolf, and the 
grizzly bear. They also actively manage thriving populations of 
other native wildlife: elk, deer, bison, sage-grouse, and 
antelope.
    States work to manage invasive species. One example, 
cheatgrass, increases the risk of wildfires; it lowers the 
quality of forage for wildlife and for livestock; it 
unnecessarily burdens already stressed water supplies; and it 
poses one of the most significant threats to sage-grouse 
habitat conservation efforts.
    They also manage the zebra and the quagga mussels, which 
threaten our aquatic ecosystems and cause millions of dollars 
in damage to dams, municipal water systems, and agricultural 
irrigation systems. They monitor and manage mule deer and elk 
after harsh winters. They study and mitigate the risk of 
brucellosis for elk, and they remain on the cutting edge of 
research on chronic wasting disease.
    Wyoming demonstrates successful conservation, recovery, and 
management of wildlife every day. It is no easy task, and the 
State continues to invest countless hours and millions of 
dollars. At times, these investments have been dismissed by 
litigious groups and activist judges in Federal court.
    A few weeks ago, a District Court judge struck down the 
delisting of the grizzly bear in the Greater Yellowstone 
Ecosystem. For the second time in a decade, courts disregarded 
the biological expertise of both States and Federal agencies.
    The ruling is not based on the reality on the ground. In 
the delisting, the U.S. Fish and Wildlife Service said, ``The 
participating States of Idaho, Montana, and Wyoming, and 
Federal agencies have adopted the necessary post-listing plans 
and regulations which adequately ensure that the Greater 
Yellowstone Ecosystem population of grizzly bears remains 
recovered.''
    In 1975 there were as few as 136 grizzly bears in the 
Greater Yellowstone Ecosystem. Today there are more than 700. 
And the bears have more than doubled their range to occupy over 
22,000 square miles. The range continues to spread.
    Without proper management, they are a threat to public 
safety not only to the people in my State, but to sportsmen and 
recreationists from across the country who want to experience 
Wyoming's national parks, our forests, and other public lands.
    Tragically, on September 14th of this year, a Wyoming elk 
hunting guide was killed by a grizzly bear and her cub. This 
attack happened when the guide, along with his client from 
Florida, were cleaning an elk, a normal part of any hunt.
    While these are serious examples of wildlife-human 
interactions, State wildlife managers work tirelessly to limit 
any negative interactions. We have to let Wyoming and other 
States do their job.
    I would now like to turn to Ranking Member Carper for his 
opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks very much, Mr. Chairman.
    We welcome our witnesses. I understand Ms. Dohner--I was 
talking to her--she tells us her husband is on the run today, 
and it has something to do with the big storm, heading for 
where, Mobile?
    Ms. Dohner. Mobile, yes, sir.
    Senator Carper. OK. Well, best wishes to him and a lot of 
other people down there, too.
    Mr. Chairman, I am delighted to have the opportunity to 
highlight today one of Delaware's great endangered species 
success stories. We hear a lot about failures, but I want to 
share a success story today.
    The U.S. Fish and Wildlife Service considered the Delmarva 
fox squirrel endangered before the current Endangered Species 
Act was even enacted into law in--I think it was 1973. 
Overhunting and habitat destruction were the leading causes of 
the squirrel's decline.
    The Service didn't develop the first recovery plan for the 
squirrel until 1979, and the plan required two sets of 
revisions, I think one in 1983, and one in 1993.
    Over the course of decades, the U.S. Fish and Wildlife 
Service worked with Delaware, worked with Maryland, and worked 
with Virginia to introduce and monitor experimental Delmarva 
fox squirrel populations. These populations grew and traveled 
onto private lands, creating some unexpected challenges for 
landowners. It wasn't easy, but the Service, the States, the 
landowners, and other stakeholder groups worked together to 
address these challenges while advancing the squirrel's 
recovery.
    As a result of this collaborative conservation approach, 
the U.S. Fish and Wildlife Service removed the Delmarva fox 
squirrel from the Endangered Species List 3 years ago, in 2015, 
nearly 50 years since the date of listing. The delisting was a 
shared success among the States, the Service, and all parties 
that participated in recovery actions. Notably, the delisting 
did not, did not result in any litigation.
    So, I want to underscore the importance of the strong 
Federal role in the recovery of the Delmarva fox squirrel. 
Without Federal coordination across State lines, the squirrel 
may not have recovered. While rate efforts have driven many 
species' conservation success stories, the backstops and 
incentives provided by the Federal Endangered Species Act are 
absolutely critical.
    I believe the Delmarva fox squirrel story is the rule for 
species recovery, not the exception. Most species become 
imperiled over the course of many years. In this case, the fox 
squirrel population had likely been decreasing for about a 
century. Therefore, it should come as no surprise that species 
recovery can take decades, as it did for the Delmarva fox 
squirrel.
    Lengthy recovery times do not mean that the Endangered 
Species Act isn't working, as some of our colleagues may 
suggest. When the Endangered Species Act is adequately 
resourced--adequately resourced--it actually works quite well.
    In addition to the Delmarva fox squirrel, the Endangered 
Species Act has helped recover bald eagles and is currently 
helping recover the red knot and the piping plover birds in 
Delaware and up and down the East Coast. Birders come from near 
and far. They come to observe these species, and when they do, 
they support our ecotourism industry.
    I also hear from some of our colleagues raising concerns 
about litigation, especially litigation regarding declining 
species. Sometimes disagreements between wildlife managers and 
stakeholders result in litigation, particularly around highly 
charismatic, nationally beloved predatory species. These 
disagreements are unfortunate, but judicial review remains a 
necessary part of the Endangered Species Act.
    As we will hear from at least one of our witnesses today, 
litigation can even forge stronger relationships between the 
States and Federal agencies as they work to improve species 
conservation outcomes and overcome lawsuits.
    I recognize there may be difficulties associated with 
litigation, but litigation over delisting decisions is quite 
rare. In fact, I am told that environmental nonprofits, which 
provide a voice for the public, have sued in only 9 percent of 
all delistings. The courts have sided with these NGOs on just 
two species, grizzly bears and wolves.
    Mr. Chairman, I believe that both of these species live in 
your great State, that would be the grizzly bears and the 
wolves, but I think it is important for us to acknowledge that 
we are not talking about a systemic issue here. As such, I hope 
our Committee will focus much of its efforts on addressing the 
severe funding constraints that are limiting both State and 
Federal abilities to better conserve species.
    When States work collaboratively with Federal agencies and 
diverse stakeholders, I believe that our environment, our 
wildlife, and our economy can prosper together. That is 
certainly our experience in Delaware. I hope the same is true 
in all of our States.
    Let me conclude by saying we look forward to hearing the 
testimony from each of you today.
    And we want to thank you again, Mr. Chairman, for bringing 
us all together for what I believe will be a valuable 
conversation.
    I have another committee--in fact, we all have committees 
that are meeting at the same time, and I am going to be coming 
and going. I don't mean to be rude, but please bear with us, 
and we will be with you as much as we can. Thank you all for 
joining us today.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Carper.
    We are now going to hear from our three witnesses. We will 
be hearing shortly from Mr. John Kennedy, the Deputy Director 
of the Wyoming Game and Fish Department. I will more formally 
introduce Mr. Kennedy in a minute.
    We also have joining us today Mr. Mike McCormick, the 
President of the Mississippi Farm Bureau Federation; and Ms. 
Cindy Dohner, who is the former Regional Director of the 
Southeast Region of the U.S. Fish and Wildlife Service.
    I want to remind each of the witnesses that your full 
written testimony will be made part of the official hearing 
record, so please try to keep your statements to 5 minutes so 
that we will have time for questions.
    I would now like to introduce Mr. John Kennedy, who serves 
as the Deputy Director for Internal Operations at the Wyoming 
Game and Fish Department. He began his career at the Wyoming 
Game and Fish Department in 2004 as the Service Division Chief. 
In that role, his duties included coordinating the agency's 
management of wildlife habitat, as well as conservation 
education.
    Now, as Deputy Director, Mr. Kennedy is responsible for the 
agency's oversight of the fish, wildlife services, and the 
fiscal divisions. He also serves on a number of committees of 
the Association of Fish and Wildlife Agencies and the Western 
Association of Fish and Wildlife Agencies. Each of these 
positions has provided Mr. Kennedy with valuable wildlife 
conservation, recovery, and management expertise. He also is a 
proud and distinguished graduate of a program that I have also 
attended and graduated from, Leadership Wyoming.
    Mr. Kennedy, it is a privilege to welcome you today to the 
Environment and Public Works Committee. Please proceed.

 STATEMENT OF JOHN KENNEDY, DEPUTY DIRECTOR, WYOMING GAME AND 
                        FISH DEPARTMENT

    Mr. Kennedy. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the Committee. My name is John 
Kennedy, and I am with the Wyoming Game and Fish Department.
    Mr. Chairman, thank you for the reference to the work that 
is taking place in Wyoming with the Wyoming Game and Fish 
Department. I appreciate that and will be sure to pass that on 
to our employees.
    I appreciate the opportunity to testify today about 
wildlife conservation in Wyoming.
    Mr. Chairman and members of the Committee, as you know, the 
50 States have the primary legal authority and management 
responsibility for a great deal of the country's wildlife 
resources. States have specific authority for wildlife 
management within their borders, including most Federal lands.
    In the late 1800s the Nation's wildlife resources were 
depleted due to unregulated hunting and habitat loss. In order 
to protect the resource, hunters and anglers advocated for 
regulations for hunting and measures to protect valuable 
habitat. These efforts led to the creation of the North 
American Model Wildlife Conservation, which has two main areas 
of focus: fish and wildlife belong to all citizens and wildlife 
management for perpetual sustainability.
    To carry out the management charge granted by the 
Constitution, every State has an agency dedicated to managing 
wildlife resources within their borders. In spite of limited 
funding, State agencies have garnered considerable expertise in 
response to the growing need to address at-risk and imperiled 
species, and to carry out management responsibilities across 
the country.
    On average, 60 to 90 percent of State wildlife agency 
budgets are derived by hunters and anglers. Management of 
wildlife and the habitats that support them is partially funded 
through excise taxes on hunting and fishing equipment collected 
under the Federal authority of the Pittman-Robertson and 
Dingell-Johnson Acts, which have been a critical source of 
wildlife conservation funding in the United States for over 80 
years. The sale of hunting and fishing licenses significantly 
contribute to the conservation efforts at the State level. In 
Wyoming, hunters and anglers fund the Department's work almost 
entirely.
    The collective annual budget of State wildlife agencies is 
significant: $5.6 billion. Nearly 59 percent--that is $3.3 
billion--comes from hunting and fishing related activities 
either directly through the sale of licenses, tags, and stamps, 
or indirectly through Federal excise taxes on hunting, fishing, 
and recreational shooting equipment.
    Despite this hunting and fishing specific funding model, 
State wildlife agencies have a long history of success in 
restoring many species, both game and non-game. It has been 
long recognized that the traditional focus of State wildlife 
agencies has been on the conservation of game species, but more 
attention and funding has been directed toward the conservation 
of non-game species. This shift was the impetus for development 
of State Wildlife Action Plans and the State Wildlife Grants 
program. Each State has a plan developed that identifies the 
species of greatest conservation need in the State and provides 
for the inventory, research, and management actions necessary 
to conserve those species.
    The need for new and broader funding is reflected in one of 
the recommendations made by the Association of Fish and 
Wildlife Agencies Blue Ribbon Panel on sustaining America's 
Diverse Fish and Wildlife Resources. That recommendation is to 
secure an additional $1.3 billion for the Wildlife Conservation 
Restoration Program and is the impetus for our current work on 
the Recovering America's Wildlife Act.
    In Wyoming, the responsibilities of the Department are 
defined in Wyoming's statute and charge the agency to provide 
an adequate and flexible system for the control, management, 
protection, and regulation of all Wyoming wildlife. The 
Department manages over 800 wildlife species. The Department's 
core priority is to manage wildlife using sound scientific 
principles, while maintaining stakeholder satisfaction. This 
includes actively monitoring wildlife populations, adjusting 
regulations to ensure sustained use, conducting research, 
enforcing wildlife laws and regulations, conserving and 
restoring habitat, and maintaining an increasing public access 
for hunting and fishing.
    While there are significant challenges to managing certain 
species and habitats, State wildlife agencies are the best to 
address those challenges, just as Wyoming has done with the 
greater sage-grouse, black footed ferrets, grizzly bears, and 
wolves. It is also worth noting the dozens of wildlife that 
faced serious challenges nearly 100 years ago that were brought 
back through State led collaborative conservation efforts, 
including mule deer, moose, elk, and pronghorn antelope.
    As you can see in my written testimony, there are many 
examples of successful State conservation, recovery, management 
of wildlife in Wyoming, including work on threatened and 
endangered species, non-game and game. This includes successful 
conservation work on the bald eagle, peregrine falcon, and 
again, sage-grouse, grizzly bears, gray wolf, and black footed 
ferrets.
    Mr. Chairman, as you referenced in the introduction, there 
are also examples of successful State management of invasive 
species. In terms of aquatic invasive species, we have been 
successful in keeping two species of concern out of our waters, 
those being quagga and zebra mussels. And although managing 
cheatgrass has proven to be extremely challenging and costly, 
we have accomplished successful site specific treatments in 
certain areas of Wyoming. We are also controlling certain 
terrestrial invasive species on wildlife habitat areas that we 
manage throughout the State.
    Mr. Chairman and members of the Committee, thank you for 
the opportunity to testify today and to talk about Wyoming's 
work to conserve, recover, and manage wildlife. I am happy to 
answer any questions that you might have.
    [The prepared statement of Mr. Kennedy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Well, thank you for your testimony. We 
are grateful to have you and your testimony here today. Thank 
you.
    Mr. McCormick.

            STATEMENT OF MIKE MCCORMICK, PRESIDENT, 
               MISSISSIPPI FARM BUREAU FEDERATION

    Mr. McCormick. Chairman Barrasso, Ranking Member Carper, 
and members of the Committee, my name is Mike McCormick. I am 
the President of the Mississippi Farm Bureau Federation, and I 
am pleased to be here today to offer my testimony on several 
issues of importance to farmers and ranchers across the 
country.
    On behalf of the nearly 6 million Farm Bureau member 
families across the United States, I commend you for your 
leadership in providing oversight of successful State work to 
conserve, recover, and manage wildlife.
    I would like to devote my time today to primarily discuss 
several examples of species which have witnessed positive 
conservation goals and recovery largely due to the effective 
partnerships between private landowners and State wildlife 
agencies.
    A great example of local and State partnerships is a 
stewardship program that Mississippi Farm Bureau Federation and 
the Mississippi Department of Agriculture developed to protect 
and manage pollinators. The Mississippi Bee Stewardship Program 
is the result of a series of collected discussions held among 
stakeholder groups to discuss ways of fostering better working 
dialogue among the State's row crop farmers and beekeepers, all 
in the spirit of conservation, coexisting, and cooperation to 
protect pollinators through voluntary efforts.
    Three pillars of the Bee Stewardship Program include 
communication, cooperative standards, and habitat restoration. 
With these efforts primarily tailored to the relationships 
between the farmers and beekeepers, we feel the standards they 
develop will be beneficial to native pollinators as well.
    This program was used as a model nationally and was adopted 
by several other States and included in the President's 
Pollinator Partnership Action Plan. Much of the success can be 
attributed to the fact that the Environmental Protection Agency 
and other Federal agencies supported the effort but allowed 
local partnerships to develop and implement the plans.
    Additionally, the Mississippi Department of Wildlife 
Fisheries and Parks has done a tremendous job with the 
preservation and recovery of numerous other species. To restore 
Mississippi's wild alligator population after it was placed on 
the Endangered Species List, the Mississippi Game and Fish 
Commission relocated nearly 4,000 alligators to the State. The 
Mississippi Game and Fish Commission's relocation efforts, 
combined with Federal regulations of protecting alligators, 
have allowed the alligator population in Mississippi to 
rebound.
    After 24 years of dedicated recovery efforts by private 
landowners, farmers, and State Federal agencies, the Louisiana 
black bear was removed from the List of Endangered and 
Threatened Wildlife in 2016.
    During the 1800 to 1850 time period the white-tailed deer 
population in the State disappeared from much of their range, 
mostly east of the Mississippi River. Due to strict protection 
of antlerless deer and partnerships among private landowners, 
farmers, and State agencies, the Mississippi white-tailed deer 
herds have grown rapidly, and today Mississippi deer herds rank 
among the most abundant in the United States.
    Another very successful program in Florida is the Landowner 
Assistance Program. The Landowner Assistance Program, housed at 
the Florida Fish and Wildlife Conservation Commission, has a 
history of cooperative working relationships with private 
landowners and managers. The program assists with measures to 
conserve wildlife habitat, while keeping land productive for 
many agricultural and recreational uses. Specifically, this 
program works with landowners to preserve habitat and protect 
species such as white-tailed deer, black bear, wild turkey, 
bobcat, panther, gopher tortoise, kite, and caracara.
    The final example of landowners working hand in hand with 
Federal and State partners is in the State of Kentucky. Black 
vulture depredation was recognized as an issue in Kentucky 
around 2004, when cattlemen began noticing a new type of 
behavior by vultures. This bird was having a devastating impact 
on cattle farms when newborn calves were birthed and these 
vultures would attack the calf and would typically result in 
the loss of the newborn.
    After numerous conversations with stakeholder groups and 
State agencies, the USFWS encouraged the Kentucky Farm Bureau 
to submit an application for depredation permits. In 2013 the 
Kentucky Farm Bureau was allowed to issue depredation permits 
with close oversight by the USFWS. Today, the Farm Bureau is 
issuing permits with close support by the Kentucky Fish and 
Wildlife Service.
    One key ingredient that has been vital to the success in 
the examples I have just highlighted is the positive working 
relationship that exists between stakeholder groups and all 
Federal and State agencies in those respective States. 
Additionally, the success of many of these programs would not 
be possible without the support of our land grant universities, 
which provide a vital service to agriculture in our State.
    I am joined here today by my staff, as well as a 
representative from the Department of Agriculture and Commerce 
that has extensive background in wildlife management. Their 
presence here today is another reflection of the strong working 
relationship that we have with our State and agency partners. I 
believe they also have a letter of support that has been 
introduced in the record.
    In closing, the American Farm Bureau Federation appreciates 
the Committee's commitment to promoting successful examples of 
conservation and wildlife recovery achieved through 
partnerships with private landowners and State and Federal 
agencies. The continued commitment to stewardship and 
conservation by American farmers and ranchers cannot be 
overstated. We look forward to continuing to work with you in 
advancing the shared conservation goals which I have 
highlighted today, and I look forward to your questioning. 
Thank you.
    [The prepared statement of Mr. McCormick follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Thanks so very much for your testimony. 
We appreciate you being here and joining us today.
    Now we look forward to what you have to say. Thanks, Ms. 
Dohner, for attending.

  STATEMENT OF CINDY DOHNER, CINDY K. DOHNER, LLC AND FORMER 
       REGIONAL DIRECTOR, U.S. FISH AND WILDLIFE SERVICE

    Ms. Dohner. Good morning, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee. I am Cindy Dohner, and I 
work in the environmental field since I retired from the 
Service last year. I served as the Southeast Regional Director 
and provided leadership and oversight for the Service's species 
conservation work across 10 States, Puerto Rico, and the U.S. 
Virgin Islands.
    Since leaving the Service, I continue to find new ways to 
advance species conservation, and I am helping lead a 
conservation effort called Conservation Without Conflict, that 
started last year. This new effort is both an approach and a 
coalition. Members have diverse goals and values, including 
economic profit, hunting, fishing, conservation, and national 
security. They all come together around common conservation 
interests and a sense of good land stewardship, and we are 
making a difference.
    Mr. Chairman, I appreciate the opportunity to add my 
perspective on the conservation, recovery, and management of 
wildlife. As the Regional Director in the Southeast, I worked 
hard to balance the conservation of natural resources with the 
needs of the public on the landscape.
    This Nation values land and the well-being it provides 
family, the recreational opportunity it affords, and the 
wildlife it sustains. I was also committed to making the ESA 
works for the American people.
    I believe the Act provides a critical catalyst and has 
inherent flexibilities, although not always used, that allows 
those in the landscape to work together in an effort to 
conserve species. Not only do I believe it, but I have seen the 
successes in the South.
    The States and the Service conservation efforts in the 
South have resulted in more than what we call 185 wildlife 
wins. That includes species not needing the Act's protection or 
those that have been recovered, down listed, or delisted. Today 
I would like to give you a few examples.
    We work closely with the State fish and wildlife agencies 
throughout the Southeast Association of Fish and Wildlife 
Agencies. That includes 15 southeastern States, and that is 5 
more than my region had. We had a common sense approach to 
species conservation. We forged a unique relationship between 
the Service and our State partners, sometimes referred to as 
ensuring there is no daylight between us. This didn't mean that 
we agreed all the time, because the missions varied, but that 
we agreed on as many things we could, and we didn't surprise 
each other.
    Since the South is rich in biodiversity, it isn't 
surprising to find at least five States in the South have the 
highest Federal listings, with Alabama being one of the States 
with the most aquatic diversity in the Nation, having 127 
federally protected species. However, you don't hear much 
controversy in this region because we work hard to advance 
conservation without a lot of conflict. This type of working 
relationship was forged almost 20 years ago, when both the 
Service and the State of Florida, the Florida Conservation 
Commission, were sued over manatee recovery issues. We realized 
at the time, if we worked together we were stronger, and we 
were able to provide more conservation for the species, and 
both the State and the Service played important roles.
    But agencies have limited resources to conserve species 
under the Act, and sometimes difficult choices need to be made. 
Because of the two lawsuits, the State and the Service came 
together to share resources to address high priority actions 
available under their oversight and their laws. The manatee is 
now one of the species that has been down listed, but it took 
the collective recovery efforts of both agencies, many 
stakeholders, and others to make a difference. The species has 
now been down listed.
    One thing the Service and the State agreed on is the desire 
to reduce the regulatory burdens on landowners. As RD, we 
explored many processes available to streamline the regulatory 
process by using tools like safe harbor agreements for private 
landowners.
    In some cases, we developed new innovative tools to reduce 
regulatory burdens. A unique example is the Section 6 agreement 
we have with the State of Florida, the Service has. This 
agreement streamlined the permitting process by giving the 
Commission the ability to issue Endangered Species Act permits 
for the Service, resulting in the elimination of duplicate 
permitting for the same action. The State of Florida, though, 
had to change its laws to ensure they could meet the Act's 
requirements.
    Another major challenge I dealt with as the RD came with 
the Service's multi-district litigation settlement in 2011 and 
numerous ESA petitions. As a result of these actions, the 
Southeast was required to determine the status of more than 450 
species. There were concerns that if all the species were 
listed, it could have resulted in more than doubling the number 
of species listed, which would have significantly increased the 
regulatory burden on the landowners.
    As RD, I knew this was a challenge that would require a 
collaborative effort to get durable outcomes, so I approached 
the State directors in the Southeast Association to discuss the 
issue. Needless to say, they were surprised, concerned, and a 
bit worried over the sheer number of species needed to be 
evaluated. They were not too happy that I was also changing 
their priorities, and to be honest with you, I didn't blame 
them. However, because of our dialogue and deliberations, in 
2011 we embarked on the At-Risk Species Conservation Strategy.
    With sound science as our guide, we, along with Federal 
agencies, private landowners, industries, and NGOs, began the 
process of proactively conserving as many species as possible. 
Through these efforts, the Service has determined that Federal 
listing is not warranted for 171 species. I am proud of the 
many actions taken by the Service across the South to conserve 
at-risk species during my time as RD, especially the 
partnerships we formed with the States, private landowners, 
industry, and other Federal agencies.
    Private lands comprise about 90 percent of the landscape in 
the South, and these lands provide habitat for about 80 percent 
of our Nation's imperiled species. But other Federal agencies, 
industries, and NGOs all play a role.
    In closing, Mr. Chairman, I would like to emphasize the 
importance of both the Service and the States' roles to 
conserve species. The Act has provided a critical framework 
that has catalyzed an approach and created successful 
partnerships to conserve species. When the law is implemented 
more effectively and collaboratively, and with a common sense 
approach, you get benefits for species and landowners.
    Both the States and the Service rely upon having a science 
driven and transparent decisionmaking process where people and 
businesses in affected communities can participate easily and 
effectively. I know the Service and the States are committed to 
conserving fish and wildlife by relying upon strong 
partnerships and creative, voluntary solutions to achieve 
conservation, minimize the regulatory burden, and keep working 
lands working. Their commitments have been demonstrated by the 
conservation successes in the South.
    I believe the Act is already inherently flexible and allows 
us to recover and conserve species, but these flexibilities are 
not always used today. I am also aware various bills have been 
proposed to amend the law. We have learned much since the law 
was originally passed.
    If ESA amendments are considered, I think it is important 
to think strategically about what works and what is really 
needed to improve the effectiveness of the Act. What we really 
need are new, innovative tools, adequate resources to implement 
the law, more people that use a common sense approach to 
implement it, and time.
    Thank you for your interest in recovering and conserving 
species, and the implementation of the Act. I appreciate the 
opportunity to testify and have submitted a written testimony 
with more detail.
    [The prepared statement of Ms. Dohner follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. And that will be included as part of the 
permanent record.
    Ms. Dohner. Thank you, sir.
    Senator Barrasso. Thanks for being here.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman, for taking me out 
of turn. We have a conflict in the Armed Services Committee, 
but this is so significant to me that I wanted to be sure to 
get on record, as we have many times before, back at the time 
when I used to be chairing this Committee.
    Our Oklahoma Department of Wildlife Conservation has been 
doing a great job conserving species in my State of Oklahoma. 
The Oklahoma Paddlefish Management Program was responsible for 
the fact that it is now thriving in Oklahoma, and yet other 
States are on the decline. The same thing is true--in fact, it 
has been taken off the listing of our swift fox, our mountain 
plover, which is a bird, have been withdrawn from the petition, 
so good things are happening there.
    I would mention, though, that the lesser prairie-chicken 
was not one of our successes. I would say to Mr. Kennedy, we 
partnered, about 4 years ago, with New Mexico, Kansas, Texas, 
and Colorado, so the five of us, our States partnered together, 
put together a program for the lesser prairie-chicken, and it 
is one that was very, very successful. We increased the 
population. We had some buy in of various stakeholders to 
prevent threatening and listing, and yet the U.S. Fish and 
Wildlife--you have to keep in mind when you are dealing with a 
bureaucracy, there is this idea that they do a better job than 
we do at the State level.
    Mr. Kennedy, I think some of the listings actually have a 
negative effect on the conservation efforts. Don't States have 
more flexibility when it comes to conservation efforts over the 
ESA? What is your experience?
    Mr. Kennedy. Chairman Barrasso, members of the Committee, 
Senator, I think that you explained it quite well. There is 
some frustration, and that frustration comes into play when you 
get passt the science and the good work that is taking place on 
the ground. There is some bureaucracy that can come and get in 
the way, certainly. I would agree with that.
    These listings take a lot of time, and we have limited 
staff resources to deal with these, and certainly the U.S. Fish 
and Wildlife Service has limitations. If you look at the number 
of listings nationwide that takes place and the work that is 
required, there is no wonder why these things take a lot of 
time. It also diverts a lot of time and expertise away from the 
States and their current priorities that they are working on to 
work on these recovery goals and listing decisions.
    So, in my opinion, the Endangered Species Act, I think I 
agree with all the comments that have been made and the 
testimonies that have been provided, but it has become a 
regulatory tool for litigants to direct Federal land management 
activities and/or State wildlife management goals, as opposed 
to a conservation measure.
    Senator Inhofe. I appreciate that.
    Mr. McCormick, I know the Farm Bureau has been very active 
in activating people, this concept that they care more about 
their land than any bureaucrat in Washington does. As a matter 
of fact, we had Dan Ashe, who is the head of the Fish and 
Wildlife of the last Administration, and he actually learned 
himself. During his confirmation, I got a commitment for him to 
make two trips out to Oklahoma to talk to our landowners, and 
he came back with the idea that, in fact, that is a better way 
of doing it.
    What has been your experience?
    Mr. McCormick. Mr. Chairman, I appreciate the opportunity 
to be here.
    Senator Inhofe, I think you are exactly right. Farmers have 
but one goal, and that is to pass our land, our farms along to 
the next generation better than we found it today, and we 
certainly want to have wildlife there for our children and 
grandchildren.
    Senator Inhofe. And you are aware of the Partnership 
Program? The Partnership Program is one that brings the 
landowners in with Fish and Wildlife, and that was what was 
expanded dramatically during that time, when the Administration 
actually was initially opposed to it.
    So, is that working in Mississippi?
    Mr. McCormick. I am not aware of that, Senator, but I am 
sure our staff is.
    Senator Inhofe. It is working well. Tell your staff they 
are doing a good job.
    Thank you, Mr. Chairman.
    Senator Barrasso. Senator Carper.
    Senator Carper. Let me just wait. I can stay now. If others 
would like to go ahead. I am going to be here until the very 
end.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Well, thank you.
    First, let me thank our witnesses.
    Mr. Chairman, I have been to Yellowstone several times. I 
have been able to, at one time, observe a wolf. I think the 
wolf knew I was a member of the Senate because it took off 
right away, out of fear.
    Senator Barrasso. Professional courtesy?
    Senator Cardin. I think so. And I have observed bears at 
Yellowstone at safe distances, and safe distances is having 
someone smaller than you in front of where I was. I did that 
also.
    I have never seen a grizzly. Have no desire to see a 
grizzly out in the wild, but I am glad to see that recovery is 
taking place.
    I do take pride in Delmarva fox squirrel being delisted. I 
was in the Maryland part of Delmarva with the Secretary of 
Interior when we announced the delisting at Blackwater National 
Wildlife Refuge, which is one of the areas that expanded its 
capacity to have the habitat necessary for the Delmarva fox 
squirrel to be able to recover.
    I have also been to Florida and seen many times manatees in 
the wild. It is an incredible sight to see and know the 
challenges at work there.
    So, I am a strong supporter of the Endangered Species Act, 
recognizing that at times it does cause conflict. But in the 
way that it has worked over its years, it has been a 
cooperative effort. As Senator Carper mentioned in his opening 
statement, in most cases the listing and delistings occur in a 
cooperative way, not in litigation, although at times 
litigation is necessary. And as Ms. Dohner pointed out, 
litigation has brought some good results, and I appreciate that 
very much.
    Ms. Dohner, I want to get to the point that you raised. I 
thought it was a very telling point. And that was that it is 
not just the listed species that benefits from the recovery 
work, but other species benefit as well. That has certainly 
been true in the Chesapeake Bay Watershed. What is happening at 
Blackwater is not just affecting the Delmarva fox squirrel, but 
you can look at bald eagles, you can look at so many other 
species that are flourishing as a result.
    Could you just comment briefly that the Endangered Species 
Act and the recoveries that have taken place under that, the 
impact it has on the general environment, not just those listed 
species?
    Ms. Dohner. Yes, sir. Thank you for that, and thank you for 
your work in the Chesapeake Bay, because I grew up in that 
area, and I got to enjoy it all the time.
    I believe that the Endangered Species Act is a very 
important law and one that serves as a catalyst to bring people 
together. I think that you have heard from some of the work 
that the other witnesses talked about, that the conservation 
efforts, when you bring people together, you can actually get a 
lot of work done, and the fear of regulation is one thing that 
brings people to the table.
    Private landowners on the land want to work their lands. 
Military bases want to ensure that they can train. Timber 
companies want to ensure that they can cut their timber. And 
when you look at additional regulation, that could impact all 
of those sources and those aspects of the use of the land, so 
one of the things, when we got that large petition, is it 
brought everybody together. Everybody came together. It 
coalesced the interests so that we could work real hard to 
minimize the regulation that would go onto the landscape.
    By doing that, we were able to find ways to conserve 
species. I said there was 171 that were conserved so far that 
don't need the Act's protection, which in itself is a success 
story. And you are able to go forward with all the lands that 
are continuing to work.
    Senator Cardin. Thank you for that.
    I just want to mention one other area that has me 
concerned, and that is the challenges we are seeing on climate 
change and whether the Endangered Species Act is even strong 
enough to deal with some of these new challenges.
    In Florida, red tide, we don't know exactly what has caused 
it, but it is unprecedented, the range and length of this red 
tide episode. They believe weather conditions have added to 
those concerns.
    Do we need to look at our environmental laws, including the 
Endangered Species Act, as to whether it is adequate to deal 
with the challenges that we are facing as a result of climate 
change?
    Ms. Dohner. Sir, thank you for that question. I think the 
Endangered Species Act, the way it is currently written, 
requires the Service to work closely with the States and to 
evaluate the status of the species, and that includes anything 
as far as changes to the status of the species, so impacts from 
climate, impacts from habitat degradation, and those types of 
things. The judicial reviews that happen as part of the 
Endangered Species Act and the things similar to what the 
manatee was, they are challenging, they are frustrating, and it 
is hard work, but that process also brought everybody to the 
table and brought the Endangered Species Act evaluation open, 
it opened it up, and it was more public, and we were able----
    Senator Cardin. We will see how your successor deals with 
red tide. To me, that is going to be an incredible impact on 
species preservation in that region.
    Ms. Dohner. Right. That is all the way over to where I live 
in Destin, sir, so I understand that concern. And I do think 
that the Acts are going to be able to address those impacts in 
the future.
    Senator Cardin. Mr. Chairman, I ask unanimous consent to 
enter into the record a letter signed by 73 scientists 
expressing concerns regarding grizzly bear hunting in the 
Greater Yellowstone Ecosystem.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Senator Cardin. Once again, thanks to the witnesses.
    Senator Barrasso. Thank you, Senator Cardin.
    Mr. Kennedy, we have some poster boards from your agency, 
and they show the growth in the human-bear incidents. There are 
a couple over there--I think it was 1990s, 2013--as the bear 
continues to spread out beyond the Yellowstone area into places 
south of Jackson, into the Wind River Reservation, surrounding 
communities.
    How is this relisting of the bear complicating your efforts 
to manage the human-bear incidents that continue to occur?
    Mr. Kennedy. Chairman Barrasso, members of the Committee, 
as you can see with these representations up in front of us, 
the conflicts, that is, the conflicts in yellow in a different 
period of years, have increased significantly since 1990, that 
is for sure, and that is consequential to the increase in both 
density and distribution of grizzly bears as the population 
reached and exceeded recovery.
    As you mentioned early in the introduction, Chairman 
Barrasso, the most grave example of increased conflicts is 
illustrated by the number of human deaths attributed to grizzly 
bear attacks. Prior to 2010 it had been over two decades since 
a person was killed in the Greater Yellowstone Ecosystem by a 
grizzly bear, and since then, unfortunately, there have been 
seven, with the most recent occurring just a few weeks ago, as 
you had referenced.
    The process now is complicated, certainly compared to when 
it is under the State's management responsibilities. Dealing 
with conflict grizzly bears will now require authorization by 
the Grizzly Bear Recovery Coordinator for the U.S. Fish and 
Wildlife Service in any case where a bear needs to be removed 
from the populated or translocated, so this often means that a 
person from the Federal Government who does not live in Wyoming 
or have any experience dealing with conflict bears makes the 
final decision as to how to handle these cases.
    Having said that, I would say that since this most recent 
decision to relist, the U.S. Fish and Wildlife Service has 
supported our recommendations to date. So, other than a more 
complicated process and perhaps more time, we are able to deal 
with these conflicts as fast as we can.
    Senator Barrasso. You said someone living outside of 
Wyoming, never ever been there; I would like to read a quote 
for you from the New York Department of Environmental 
Conservation regarding bear management. This is what they said. 
They said, ``As bear populations increase, and more people 
choose to live and recreate in areas occupied by bears, human-
bear conflicts also increase. Thus, managing bear populations 
is critically important, and managers are challenged to balance 
diverse public interests in bears with concern for public 
safety.''
    So, in 2017, let's talk about what State wildlife officials 
permitted the taking of around the country. I think you are 
going to see the slide over there. Oregon, 1,700 black bears; 
New York, 1,400 black bears; Vermont, over 600 black bears; New 
Jersey, over 400 black bears; Massachusetts, 268 black bears.
    Now, Wyoming proposed to only take 22 bears in 2018 as a 
part of a hunt.
    Do you agree with the statement from the New York 
Department that managing bear populations, including through 
hunts, is necessary to balance the needs of the bears with 
public safety?
    Mr. Kennedy. Chairman Barrasso, members of the Committee, I 
do agree with that. I do agree with that statement, and we have 
seen that, and the States have a proven track record with 
respect to the regulated hunting of other species. And the 22 
bears that you referenced in Wyoming for the grizzly bear, what 
was the proposed grizzly bear hunt, was extremely conservative.
    Hunting has played an instrumental role in the recovery and 
health of wildlife populations; it is not only a pragmatic and 
cost effective tool for managing populations at desired levels, 
but as you point out, Chairman Barrasso, it also generates 
public support ownership of the resource and funding for 
conservation. And almost of equal importance, it provides a 
greater tolerance for some species such as large predators that 
may cause safety concerns, as we are talking about here.
    Senator Barrasso. I appreciate that.
    Mr. McCormick, we are going to show a chart that talks 
about additional species being considered for listing under the 
Endangered Species Act. I think you are familiar with this. 
What we are looking at, by 2023 it looks like the State of 
Mississippi is expected to get anywhere between 21 and 40 new 
Endangered Species Act listings coming up in the next couple of 
years. In fact, the entire Southeast seems to be getting a 
disproportionate number in terms of the impact, so each listing 
could have serious economic impacts to farmers and small 
business owners in your State.
    I see Senator Boozman looking at it. It looks like Arkansas 
is in exactly the same situation, with anywhere from 21 to 40.
    Is there concern among farmers in your State about 
litigation, activist judges who may move the goal posts, 
ignoring what your State wildlife conservation efforts have 
been doing if these new listings in Mississippi occur?
    Mr. McCormick. Mr. Chairman, thank you for the question. 
Absolutely would be the short answer. It seems that this has 
been more of a western issue that is now spreading into the 
Southeast, and I think the biggest thing that we probably need 
to recognize there is in the western States you are dealing 
with a lot of public lands. In the State of Mississippi, 89 
percent of our land is owned by private landowners, and I 
suspect that to be the same in Senator Boozman's State and 
across the Southeast.
    So, you are talking about a bigger impact on a wider range 
of our population that owns that land, so it is going to be 
challenging for us, as an organization, to get the information 
out on how to comply with these new regulations to those 
farmers and ranchers that may have smaller areas that they are 
going to have to deal with. But certainly, our biggest issue 
would be to make sure that the information flow gets out to 
those individuals. We want to work with the State agencies 
because we have a common goal, and that is for conservation of 
our land.
    Senator Barrasso. Thank you very much.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Before I ask some questions of our witnesses, I want to 
make a unanimous consent request. I received any number of 
letters and written testimonies in response to this hearing, 
including a letter from the Delaware Division of Fish and 
Wildlife, stating the importance of the Endangered Species Act 
and Federal agencies in species recovery.
    I also received letters from Dr. Jane Goodall, from 
Patagonia, from tribal leaders and Members of Congress, and I 
would just ask unanimous consent to enter these letter and 
other supplemental materials into the record.
    Senator Barrasso. Without objection.
    Senator Carper. Thanks so much.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
   
    Senator Carper. First question I would like to ask of you, 
Ms. Dohner. I understand you have helped create an exemplary 
model for collaborative species conservation in the Southeast 
region. Is that true, yes or no?
    Ms. Dohner. Yes, sir.
    Senator Carper. Thank you.
    This model works for species and for landowners. Is that 
true, yes or no?
    Ms. Dohner. Yes, sir.
    Senator Carper. We know that the Fish and Wildlife Service 
can do more for species with additional financial resources. 
Would you elaborate on how the Service could provide better 
regulatory certainty for landowners with additional financial 
resources and do so within the current framework of the 
Endangered Species Act?
    Ms. Dohner. Yes, sir. Thank you very much for the question, 
sir. So, as part of conservation for conflict, one of the 
things that the Service and the whole coalition--which is 
industry, States, private landowners all working together, and 
NGOs--is to use the incentives and the tools already 
established through the ESA, safe harbors, candidate 
conservation agreements with assurances.
    But sir, it takes time, and it takes staff to develop those 
resources. It takes the Service staff; it takes the staff of 
the States, because species that aren't listed are the State's 
jurisdiction, so the State and the Service both need resources. 
You also need time and the private landowners need help. 
Private landowners need to get better engaged in these efforts.
    The Fish and Wildlife Service could also improve the ESA 
through Section 7 consultation and recovery, and I would just 
like to give you one example. In the Southeast, where I was 
Regional Director, we had about 389 species that were currently 
listed, not counting those we had to evaluate.
    We had $14 million in our recovery budget. About five of 
those species took about $1 million apiece; the rest had to go 
to the 384 species on how we would do things. It is just an 
example of how the resources are not adequate and how you have 
to make difficult decisions.
    Senator Carper. OK, thank you.
    If I could, maybe a follow up question for you. This is 
with respect to judicial review, which several people have 
discussed today.
    In your testimony you mention litigation challenges. 
Litigation over new listings led to the development of the 
Service's 7 year workplan, which is helping the Service 
prioritize listings and critical habitat designations.
    In the case of the Service's relationship with Florida, you 
stated that litigation regarding manatee recovery actually 
improved your relationship with the State, actually improved 
your relationship with the State.
    Would you further elaborate on the importance of judicial 
review and how you believe the Service can work through 
litigation to maintain public trust and improve species 
conservation?
    Ms. Dohner. Yes, sir. Thank you for the question. We were 
sued by the Save the Manatee Club, and both the State and the 
Fish and Wildlife Service had their lawsuits in different 
districts. The first thing we realized is that we were having 
challenges as we worked through the lawsuits because they were 
very similar lawsuits, so we worked together, and we actually 
had the suits combined and we worked through those together.
    Because of this, we realized that we had to figure out how 
we could make a difference by the State using their authorities 
and the actions they could take and the Service using their 
authorities and the actions they could take together to deal 
with the lawsuit and the recovery of the manatee. Part of that 
process was to bring all the stakeholders together to talk 
about the science, to talk about the actions, and to talk about 
the issues we were addressing.
    That included boat dock builders, the Army Corps of 
Engineers, private landowners, all that were being impacted, 
because when we were sued, all boat dock buildings in Florida 
had been shut down, so nobody could do anything at that point. 
We had to figure out how we could find a creative solution to 
go forward, allow those on the lands or the waters to work and 
conserve a species.
    Before we got sued, the Service and the State of Florida 
didn't get along the best. After the lawsuit, to this date, the 
Service and the State of Florida, and the Southeastern States 
with the Southeast Regional Director, work well together, in a 
collaborative fashion, and many times we work seamlessly on 
restoration, recovery, conservation issues for endangered 
species.
    Senator Carper. All right; well, thanks.
    I have another question or two. Maybe we will have a second 
round. If we do, I would like to ask those. Thanks so much.
    Senator Barrasso. Thank you.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Deputy Director Kennedy, as you know, States have 
periodically been required to submit for approval State 
Wildlife Action Plans to the U.S. Fish and Wildlife Service in 
order to qualify for State and tribal wildlife grants. How 
would you characterize the State of Wyoming's relationship with 
the U.S. Fish and Wildlife Service?
    Mr. Kennedy. Chairman Barrasso, members of the Committee, 
Senator, in relation to specifically State Wildlife Action 
Plans, or in general?
    Senator Rounds. Yes, State Wildlife Action Plans.
    Mr. Kennedy. Our development of State Wildlife Action Plans 
and our work with the U.S. Fish and Wildlife Service through 
the State's Wildlife Grants program has been extremely 
productive. Certainly, in Wyoming, we have developed a very 
aggressive State Wildlife Action Plan to address those species 
that aren't listed yet.
    And all this discussion about the Endangered Species Act 
and the importance of keeping species off the list, that is 
exactly the primary purpose of those State Wildlife Action 
Plans. And again, our relationship with the Fish and Wildlife 
Service has been mostly in the form of review of those plans 
and the provision of funding to accomplish projects.
    Senator Rounds. Are there any legislative changes that you 
would see helpful with regard to promoting and furthering that 
relationship?
    Mr. Kennedy. Chairman Barrasso, Senator, I think the 
relationship is working just fine. There could be some 
improvements, certainly, in the level of funding that is 
provided to State fish and wildlife agencies specific to 
sensitive species, especially when you look at the fact that 
our model is very specific to being provided by hunters and 
anglers. There is a lot of money needed to go into those 
species for that constituency.
    But in terms of general coordination with the U.S. Fish and 
Wildlife Service for State Wildlife Action Plans, I guess I 
don't see the need for additional legislation.
    Senator Rounds. Thank you.
    Mr. McCormick, I believe you would agree with me that the 
greatest conservationists this country has are its farmers and 
its ranchers. However, Congress has responsibility to the 
farmers and ranchers to provide them with tools, when 
available, to protect habitats and prevent environmental 
degradation.
    One of those tools in my home State of South Dakota has 
been the Conservation Reserve Program. Many of us would like to 
see as many acres of CRP in the upcoming Farm Bill as we can 
get. Could you speak to the value of this program from a 
conservation perspective?
    Mr. McCormick. I can speak to the value of the program on a 
personal basis. My father-in-law's farm is in CRP, or was at 
one point in time, and it was a highly erodible tract of land 
that should have been in there and has been a big tool to be 
used for the enjoyment of wildlife and the protection of 
wildlife in the area, so it has been a good program.
    The Farm Bureau has supported the CRP program. We 
understand that it has some challenges when it becomes 
competitive with farmers that may want to lease the land and 
put it back in production, and that it may have some unfair 
advantages there to keep that land out of production, so I 
think we are in the corner of supporting the Conservation 
Reserve Program. We know that it has been a valuable tool to 
not only help our farmers, but to protect wildlife around the 
U.S., and we support the program.
    Senator Rounds. Really, the issue there should be to get 
the land which is the most vulnerable, which is probably the 
least productive land, and yet that is the land that really 
belongs in the CRP program.
    Mr. McCormick. Yes, Senator, I completely agree. I spent a 
number of years on our county committee for farm service 
agency, and it was disheartening to see that maybe some of the 
land that should've been in the program didn't rank high 
enough, and then the most productive land that needs to be out 
growing crops to feed our Nation was put in because it scored 
higher. I guess that is what I am saying, is that when we write 
these rules, we need to be aware that the land that we are 
trying to protect is probably best for the habitat for our 
wildlife needs to be the ones that scores the highest.
    Senator Rounds. Couldn't agree more with you. Thank you.
    Ms. Dohner, I am just curious. You indicated flexibility is 
not always being used today with regard to the programs. Could 
you elaborate just a little bit in terms of who has that 
flexibility? Can you think of a time in which that occurred 
that you were thinking of when you made that statement?
    Ms. Dohner. Yes, sir. Thank you very much for that 
question. Sir, I was actually in the Washington, DC, office 
when the Service developed Habitat Conservation Plans, Safe 
Harbor agreements, and the Kennedy Conservation agreements. 
Then I moved to the Southeast. At the time they weren't known 
that well, what those flexibilities are. They are basically 
voluntary programs that provide assurance or incentives to 
private landowners to get involved, and they have no additional 
regulatory burden as they go forward with these.
    So, part of the problem is people don't know how flexible 
they can be and how you can use them. They also don't 
understand how to use them sometimes. So that is part of the 
problem.
    I believe, sir, that there are also other flexibilities 
that we could use when it comes to recovering and conserving 
species, and some of the work that we did in the Southeast, 
working closely with the States, together with the States, 
sometimes the States lead, sometimes the Service leads. I think 
that we need to do that type of work more.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Rounds.
    Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman, and 
thank you for holding this hearing.
    Mr. Kennedy, welcome. I am from Rhode Island, which is very 
different than Wyoming in a lot of respects. Your Senator and I 
have done a lot of good work together on a variety of issues, 
and I have come to know a little bit about the Wyoming 
ecosystem, and I have had the pleasure of visiting out there, 
both hiking in the high timber areas and fishing for your 
wonderful trout. So, although it is beautiful in a different 
way than Rhode Island, it is a very beautiful place.
    There is a Wyoming State Wildlife Action Plan from 2017, 
and it has a 34 page report in it on the effect on climate 
change on your State in particular, and I would like to ask you 
about the two areas that I just mentioned. In one part the 
report says, ``Warming water temperatures may drive cold and 
cool water fish species''--and I think we agree that trout is a 
cold and cool water fish species--``to new ranges or lead to 
local extirpation or extinction.''
    I am wondering what you are hearing from Wyoming fishermen 
and outfitters about the effect of climate change on trout 
streams.
    Mr. Kennedy. Chairman Barrasso, members of the Committee, 
Senator, thank you for the question. We had talked earlier 
about making reference to our State Wildlife Action Plan, and 
we certainly take that plan very serious.
    Senator Whitehouse. May I just interrupt? Is that in the 
record of the proceedings? If not, I would like to ask that the 
34-page section on climate change be added to the record of the 
proceedings, since we are talking about it.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Whitehouse. Please go ahead, Mr. Kennedy.
    Mr. Kennedy. Thank you for the question. We take it quite 
seriously. We have not heard a lot of negative perspectives or 
input yet from our constituents with respect to the fisheries. 
I think that reference in the report we are anticipating and 
seeing that in other areas, and certainly scientists are 
recommending to us to be ready to be flexible and adaptable in 
that regard.
    But our fisheries right now in Wyoming, cold water 
fisheries, trout fishing, as you have referenced you have taken 
advantage of recently, is the best in the country, and it is 
really, really good right now. So, it is just a forecast for us 
and a standby to be ready to be flexible in our management, if 
necessary.
    Senator Whitehouse. And the other element is the sort of 
high timber in Wyoming, which is beautiful for backpacking and 
hiking and riding, and all of that. The report says on that 
that ``Long periods of drought may cause a decline in forested 
area as the land becomes too arid to support forest ecosystems 
and may further increase the susceptibility of forests to 
insect epidemics.''
    I assume by insect epidemics they are primarily referring 
to the bark beetle and that infestation. I have flown over and 
seen these what look to me like miles of formerly verdant 
forest that is now dead sticks, brown and gray, across the 
mountains.
    What are you hearing from your outdoor and lumber 
industries about what is happening in the forests, and the 
changes that are happening there?
    Mr. Kennedy. Chairman Barrasso, members of the Committee, 
Senator, we are hearing quite a bit in that regard when it 
comes to forest conditions and forest health, and insects and 
some high mortalities that we are seeing with our trees and our 
forests in Wyoming. We do hear from our sportsmen in that 
regard. We have forests and trail systems in Wyoming that are 
impassible right now. We have places that historically you 
could get back and hunt off of horses, and hike, where we 
simply can't do that right now.
    The other big concern is these forests, because of this 
unnatural condition that they are in with the high mortality 
from the beetles, have burns that are much different than 
historically they were, so they are burning very hot, very 
fast, and then we have big problems with invasive species like 
cheatgrass. So, we are hearing from our sportsmen in that 
regard.
    Senator Whitehouse. Sadly, we are seeing nationally a lot 
of loss of life with firefighters who are heroically going in 
to fight these fires, but sometimes, because they are so 
unusually fast and dangerous, these brave firefighters are 
surprised, and their lives are lost.
    Final question to Ms. Dohner. I am from Rhode Island. 
Particularly in the ocean side, we are looking a lot more at 
ecosystem based management as a way to look at how to keep 
environments healthy, more so than species specific programs. 
Could you talk a little bit about where ecosystem based 
management should be in our planning on this issue?
    Ms. Dohner. Thank you very much for the question, Senator. 
I believe that we have to look at ecosystem based planning or 
landscape scale planning. The Fish and Wildlife Service adopted 
strategic habitat conservation years ago, and that was planning 
at the ecosystem level or larger watershed level or landscape 
level plan.
    In the Southeast, the Fish and Wildlife Service actually 
works with the States, and it is a joint effort to develop what 
they call the Southeast Conservation Adaptation Strategy, sir, 
and it is based in science, and it provides a map that is an 
interactive map, predictive map out to 2050 that will 
constantly be updated, but that provides priority areas that 
the Southeast needs to look at; and that is, again, something 
led with the States and the Service, and there are partners, 
all types, university partners, other Federal agencies are 
involved, NGOs and private landowners are involved in this 
adaptation.
    I believed that you have to look at ecosystem based as you 
are going forward. You also have to ensure that you have 
corridors if you have increased development and those types of 
things as you are going forward. And we need to look now so 
that we can, as we know development is coming, we know climate 
change, we know that we are going to have increased storms. We 
have one right now on the coast. So, we need to figure out how 
we adapt with that, but we need to work with everybody on the 
landscape to do that, sir.
    Senator Whitehouse. Thank you, Chairman.
    Senator Barrasso. Thank you, Senator Whitehouse.
    I have two letters, one from the Wyoming Wool Growers 
Association and a second from the Rocky Mountain Elk 
Foundation, recognizing the recovery of the Yellowstone grizzly 
bear and expressing support for State management.
    If there is no objection, I ask unanimous consent to enter 
these letters into the record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Additionally, a number of us are going to 
have to leave and go to the floor for the vote on the upcoming 
America's Water Infrastructure Act, so Senator Capito will be 
chairing the Committee as I get ready to turn the questioning 
over to Senator Boozman.
    There are a number of things that I would like to follow up 
on with our witnesses, including this concept that more 
regulation creates new or improved relationship. I am not sure 
that is the case for Wyoming and for other States.
    So, I just thank all of the witnesses for being here. I 
appreciate your time and your testimony.
    With that, I would like to turn to Senator Boozman. Thank 
you.
    Senator Boozman. Thank you, Mr. Chairman. I thank you and 
our Ranking Member for your hard work in making it possible 
where we get to vote on this major infrastructure package. We 
really do appreciate you, and always your staffs for their hard 
work.
    Senator Barrasso. It was that incredible amendment that you 
introduced on the WINN program that really made the big 
difference and that carried the day, and I think that's why it 
passed yesterday 96 to 3. Thanks for your leadership. 
Appreciate it.
    And of course, the Mississippi effort on that as well.
    Senator Wicker. I got in the room real quick.
    [Laughter.]
    Senator Barrasso. Well, it was a magnificent bipartisan 
effort, really, that came out of this Committee, 21 to nothing, 
with everyone here at the podium. I am very grateful for all of 
your help, especially yours, Senator Carper, for your 
leadership.
    Senator Carper. I would call it a labor of love.
    [Laughter.]
    Senator Boozman. Very good.
    Ms. Dohner, as you know, Arkansas has been blessed with a 
number of natural resources which we are very, very proud of 
it; lots of opportunities for outdoor enthusiasts, really, 
everything from just all kinds of opportunities, hunting, 
fishing, mountain biking. All of those are important to our 
State's economy and play a crucial role in conservation 
efforts.
    I would like to quickly discuss the Arkansas project. That 
is a cooperative effort between Ducks Unlimited, the Arkansas 
Game and Fish Commission, U.S. Fish and Wildlife, as well as 
USDA Natural Resources Conservation Service.
    The program was developed to help ducks and other waterfowl 
by offering assistance to private landowners who are interested 
in wetland restoration. Started in 1993, the Arkansas Project 
has restored 150,000 acres of waterfowl habitat.
    In your previous role as Southeast Regional Director of the 
Fish and Wildlife Service, what did partnerships like the 
Arkansas Project mean for conservation in your region?
    Ms. Dohner. Sir, thank you very much for the question. So, 
the Arkansas example that you just gave is one of the great 
ones that we have, where you have everybody working together to 
conserve lands, the priority lands that wildlife needs, but it 
also works through what is needed on the landscape for working 
lands to work so people can continue with timber or 
agriculture, things like that.
    Those conservation efforts have been employed throughout 
the Southeast, shared with the States. It has been a joint 
effort doing the at-risk species conservation effort; and to 
date, we have been able to conserve 171 species, which means 
less regulations on private landowners. And that is the 
important thing. The more regulations, the more restrictions, 
so, we don't want to incur more regulations. So that gives us 
the flexibility to ensure you can, one, keep the working lands 
working and then conserve the species, sir.
    Senator Boozman. Thank you very much.
    Mr. McCormick, are you an Ole Miss guy?
    Mr. McCormick. No, sir. Senator Wicker is.
    Senator Boozman. This is the battle of the cellar dwellers 
in the SEC West this weekend, with Arkansas and Mississippi.
    Mr. McCormick. I am a fan of all Mississippi schools.
    [Laughter.]
    Mr. McCormick. How about that, Senator Wicker?
    Senator Wicker. As am I, I hasten to add.
    Senator Boozman. In your testimony, you shared several 
examples of successful wildlife conservation efforts. Incumbent 
upon this success, you attributed positive working relations 
between stakeholder groups and Federal and State agencies.
    In your experience as President of the Mississippi Farm 
Bureau Federation, what actions can Federal and State agencies 
take to maintain positive working relationships? Likewise, how 
do you believe stakeholder groups can ensure these 
relationships remain effective?
    Mr. McCormick. I think from the stakeholder group 
perspective, we must come together and create dialogue and keep 
the information flow between the landowner and the State 
agencies. That is the key. When we all stay on the same page, 
and we listen to the concerns from both sides, I think we all 
can come to an understanding of what the right direction is.
    I think our State agencies in the State of Mississippi--I 
can't speak for other States, but in the State of Mississippi 
we have a great working relationship with our Department of 
Wildlife officials and our Department of Agriculture. Our 
Department of Agriculture brought one of the key members of the 
wildlife group over to their office, and he is with me today, 
Chris McDonald. Chris works well with us to keep us informed as 
farmers on the regulations that are important to wildlife and 
how we can best manage those.
    Senator Boozman. Very good.
    We appreciate all of you being here. Sometimes we tend to 
dwell on the negative stuff, but there really are a lot of 
great stories out there where the agencies, State, and private 
entities have come together and really are making a huge 
difference in this area. Thank you very much.
    Senator Capito [presiding]. Senator Van Hollen.
    Senator Van Hollen. I thank you, Madam Chairman.
    And thank all of you for being here today.
    I know Senator Cardin and Senator Carper mentioned the good 
relationships we have working with State agencies in the 
Chesapeake Bay area; very good partnerships between our natural 
resources organizations and Fish and Wildlife and Department of 
Interior, as well as our State environmental agencies.
    Ms. Dohner, while you are here, I want to take advantage of 
the fact that I believe in your earlier capacity you served as 
the Southeast Regional Director of the U.S. Fish and Wildlife 
Service, and that included being the Department of Interior's 
authorized official overseeing the recovery and restoration 
after the Deepwater Horizon oil spill. Is that right?
    Ms. Dohner. Yes, sir.
    Senator Van Hollen. All right. So, one of the things we 
treasure, of course, is protecting the Bay, as well as our 
coastal areas. We also have a number of wildlife refuges like 
the Blackwater Wildlife Refuge that serves as a refuge for 
migratory birds. After the oil spill, after the Deepwater 
Horizon oil spill, you and the team at the Department of 
Interior used your authorities to collect payments from BP and 
others, I believe, for the massive killings of bird life, is 
that correct?
    Ms. Dohner. Yes, sir.
    Senator Van Hollen. And where did those funds go? Those 
funds go into, I think, an account to help protect wetlands, is 
that correct?
    Ms. Dohner. The funds that were generated through NACA 
would go to protect wetlands, but we also had a settlement that 
went through the Oil Pollution Act.
    Senator Van Hollen. Yes.
    Ms. Dohner. So, there were different settlements.
    Senator Van Hollen. Got it. So, I want to ask you about a 
change that has been made in the Department of Interior's 
guidance. A few months back they issued something called an M 
Opinion. Are you familiar with those?
    Ms. Dohner. Yes, sir, I am.
    Senator Van Hollen. OK. And what is an M Opinion?
    Ms. Dohner. It is a legal opinion. The Department of 
Interior takes an issue and does a formal legal opinion about 
that issue.
    Senator Van Hollen. Right. And they issued an M Opinion 
that changed the liability rules regarding responsibility for 
mass killings of wildlife as a result of a big accident like an 
oil spill, is that right?
    Ms. Dohner. Yes, sir.
    Senator Van Hollen. Can you talk a little bit about your 
interpretation of the changes that they have proposed?
    Ms. Dohner. So, I read the M Opinion, but since I retired I 
don't do as thorough of an analysis as I would have as the 
Southeast Regional Director. But the M Opinion basically is 
going to have what I believe are pretty big impacts on bird 
conservation. I served as the Service representative for the 
Regulations Committee and I also served on a board for the 
Joint Venture Migratory Bird. Both of those are for 
conservation of birds.
    This M Opinion can impact the conservation of birds and how 
we go forward. I believe it was $100 million was the fine that 
was settled from the NACA, from the violations and the impacts 
of the birds. In fact, with the BP oil spill there were 100 
different species that were impacted, and the total BP oil 
spill settlement was $20 billion. Because of the M Opinion, in 
the future, the Service or the Department of Interior, through 
those types of natural resource damage assessments, may not be 
able to consider migratory bird impacts.
    Senator Van Hollen. Right. My understanding is that they 
said that you can only get a recovery in the event that there 
was intentional wrongdoing. Obviously, the BP oil spill was not 
an intentional act; it was an accident. As I understand their 
rewrite, we would not be able to recover on behalf of the 
public unless someone could prove that BP, an oil company, or 
whoever responsible for a spill, actually intended the spill, 
which is obviously highly unlikely.
    Is that your interpretation of what they did?
    Ms. Dohner. That is my understanding, sir, yes.
    Senator Van Hollen. Well, I serve on another committee, 
Appropriations Subcommittee. When I asked Secretary Zinke about 
this, he denied that this was the accurate interpretation. Now 
they find themselves in a court proceeding, so we will be 
following up with them directly, because if that was not their 
intent, then there is no reason they should be litigating it 
right now.
    So, thank you for the opportunity.
    Ms. Dohner. Thank you, sir.
    Senator Capito. Senator from Mississippi.
    Senator Wicker. Madam Chair, I have a letter here from Andy 
Gipson, the Commissioner of the Department of Agriculture and 
Commerce of the State of Mississippi. In essence, Commissioner 
Gibson is writing to support Chairman Barrasso's efforts to 
bring transparency and State input back into the consideration 
of endangered species, and I would like to ask that this letter 
be included in the record at this time.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Wicker. Mr. McCormick, we are delighted to have you 
before us. I want to ask you about two programs that we are 
kind of proud of in the State of Mississippi and in the 
Southeast as a way to balance economic activity with species 
conservation. One would be the Mississippi Bee Stewardship 
Program. It might come as a surprise to some of our viewers and 
listeners this morning at this hearing that we would even need 
a bee stewardship program. Talk to us about that.
    And if you don't mind, shift over then to the fact that the 
Louisiana black bear, we have been so successful in providing 
habitat for them that we have been able to delist that species 
from the Endangered Species List.
    So, if you would talk about those two, it would help us a 
bit.
    Mr. McCormick. Thank you, Senator. It is an honor to be 
here with you today and with the Committee.
    We are very proud of the bee pollinator voluntary program 
that we have that we developed in the State of Mississippi. I 
think that we are on the cutting edge of realizing that this 
was going to be an issue nationally and that we need to address 
it in Mississippi with our farmers and our beekeepers and with 
our agencies to see what we could do better for all of us to 
work in our industries and foster a good relationship between 
us.
    So, we sat down with our beekeepers and our farmers and our 
governmental agencies, including the Department of Agriculture 
and Mississippi State, and just created a dialogue to see what 
was the issues, how could we work better together, what 
resources were needed; and we felt like that if we could come 
up with the answers to those where we could all work together 
on our farms to keep something being mandated and do it on a 
voluntary basis, certainly our farmers and our beekeepers would 
be much better off.
    What we found that has happened is we have opened up a 
dialogue between our beekeepers and our farmers to where we 
have a good working relationship. We have seen in other parts 
of the Nation where those conversations can be contentious, but 
our group has found that they understand that a beekeeper is a 
guest of a row crop farmer when his hives are on their 
property, and the row crop farmer finds value of those bees 
being there. We just have to find a common goal and some 
commonality on how we can protect one another and continue to 
have economic gain on our farms.
    So, the program itself was pretty simple. The basis of it 
was just continuing a dialogue. We have found things that were 
very helpful, like our Bee Aware flag that we developed that 
you can put near hives to keep the crop applicators from 
accidentally spraying bee yards. That was very positive, and 
everybody found that to be something of use.
    Senator Wicker. The bottom line is it is a voluntary 
program.
    Mr. McCormick. Yes, sir.
    Senator Wicker. Consensus among the parties, and it has 
been successful.
    Mr. McCormick. It has been highly successful and adopted 
across the U.S. as the best voluntary program to get beekeepers 
and farmers working collaboratively together.
    Senator Wicker. Now, we also have a right to be proud of 
the fact that we have been able to delist the Louisiana black 
bear.
    Mr. McCormick. Absolutely. And farmers, I think, have been 
a big part of that. The habitat that the bear enjoys, a lot of 
it along the Mississippi River, where I live, is bear habitat, 
and I think a lot of the work that we have done as farmers 
creating and maintaining the habitat for the black bears has 
been crucial in delisting that. We enjoy seeing them.
    Senator Wicker. One other thing quickly, Madam Chair, if I 
might.
    The double-crested cormorant is legally protected according 
to the migratory bird treaties in law, but also it can be a 
pest to fisheries and aquaculture. Is it your position that the 
State of Mississippi is in a better position to deal with this 
on the State basis, rather than being mandated federally?
    Mr. McCormick. Very clearly, Senator. The State has the 
resources to have the biologists and the wildlife officials out 
on the farm, so they can get there quicker, they can determine 
the problem and the solution a lot faster from a State basis 
than we could from a Federal basis.
    Senator Wicker. And the impact of this cormorant on 
fisheries and aquaculture small business is enormous if we 
don't handle it right, is that correct?
    Mr. McCormick. Yes, sir. It is the No. 1 issue that I hear 
when I talk to our catfish farmers, is this depredation issue.
    Senator Wicker. Thank you, sir. We appreciate you being 
with us.
    And thank you, Madam Chair.
    Senator Capito. Thank you.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Madam Chairwoman.
    Ms. Dohner, before I begin my questioning, I would like to 
recognize that last year you were awarded the prestigious C.W. 
Watson Award for your contributions to wildlife and fish 
conservation in the Southeast, and I note that you were the 
first woman to receive the award since the creation in 1964, so 
congratulations on that.
    Ms. Dohner. Thank you, ma'am.
    Senator Gillibrand. I appreciate you all being here today, 
along with both of you for your work and expertise on the 
collaborative work States and Federal Government are already 
doing to protect threatened and endangered species.
    Where I am from, in eastern New York State, we have the 
recent example of the New England cottontail to demonstrate 
that cooperation and voluntary conservation efforts under the 
current Endangered Species Act framework can yield positive 
conservation results.
    Ms. Dohner, as we all know, wildlife does not recognize 
State borders. Conservation efforts often must transcend State 
lines, despite differences in priorities and resources among 
various States. These differences can be substantial. For 
example, three-quarters of the States do not provide any 
mechanism at all to protect critical habitat for any endangered 
species.
    What role does the Fish and Wildlife Service play to ensure 
that conservation and recovery goals for threatened and 
endangered species do not vary widely across State lines when 
those species reside in multiple States?
    Ms. Dohner. Thank you for that question, Senator. The Fish 
and Wildlife Service needs to look at the entire range of a 
species, whether it is across State boundaries or in one single 
State, or it is across international boundaries. The Fish and 
Wildlife Service, and National Marine Fishery Service, as the 
lead for implementing the Endangered Species Act, is the one 
agency that looks across all the different boundaries and helps 
ensure that the species is protected across the range as 
needed.
    Senator Gillibrand. If the Federal role under the 
Endangered Species Act is diminished, how are States going to 
protect critical habitat for conservation if many do not have 
the authority under their own States to do so in the first 
place?
    Ms. Dohner. Thank you for the question. So, I would use the 
example that was with the State of Florida. The State of 
Florida actually has a shared Section 6 agreement with the U.S. 
Fish and Wildlife Service, so they can issue endangered species 
permits. They--at the time--did not have the authority to 
enforce the take a habitat that a species depended on, and as 
such, they needed to actually change their State laws.
    So, in order for them to properly protect habitat as 
needed, I would assume States that don't have those authorities 
would have to determine what they needed to do to ensure that 
they could protect that habitat. And I don't know what number 
of States do or do not have that authority, ma'am.
    Senator Gillibrand. OK. And do all States and territories 
have sufficient capacity and resources to coordinate species 
conservation efforts with their regional neighbors?
    Ms. Dohner. No, ma'am. I am not sure that all--I think both 
States and the Service need additional resources to conserve 
both those species not listed and listed species.
    Senator Gillibrand. In your experience, would you agree 
that the Endangered Species Act already provides meaningful 
opportunities for States to collaborate and work cooperatively 
with Federal agencies, including the Fish and Wildlife Service, 
when species are at risk of becoming threatened or endangered?
    Ms. Dohner. Thank you for the question. I think that 
Section 6 under the Endangered Species Act defines the roles, 
but I think that the Service and the States should work 
together to better define those roles and figure out how we can 
work more collaboratively together, like we did in the 
Southeast, because it is a seamless process.
    Senator Gillibrand. What would be the most effective way 
for Congress to improve the ability of States and the Federal 
Government to recover species more quickly and protect species 
before they reach the point of becoming severely threatened or 
endangered?
    Ms. Dohner. I am sorry; could you ask me again?
    Senator Gillibrand. What would be the most effective way 
for us, Congress, to improve the ability of States and the 
Federal Government to recover species more quickly and protect 
species who might be endangered?
    Ms. Dohner. Thank you very much. I think one of the ways 
that we could improve the Act, if we actually made sure that we 
had the resources that we needed. The House Appropriations 
Committee started. The House Appropriations Committee added 
language that directed the Service to do more conservation like 
is being done in the Southeast. The next year they actually 
gave the Service a small increase in their budget and said that 
increase was to be directed to regions that were working 
collaboratively, like was done in the Southeast.
    But I also think that the States need funding in addition 
to that, through either the Section 6 or the Wildlife Grant 
program that they have. In addition to that, we need to be able 
to provide the opportunities for everybody on the landscape to 
come together and work together. We need the right people in 
the right place at the right time. They need to have shared 
goals; they need to actively listen to each other, like Mr. 
McCormick was talking about, and they need to have a shared 
commitment that is founded on mutual respect and out of the box 
thinking to use the tools.
    Senator Gillibrand. Thank you.
    Thank you, Madam Chairwoman.
    Senator Capito. Thank you.
    Thank all of you. It looks like it will just be me to do 
the final questioning here.
    I wanted to just begin by thanking you. I think we have 
sort of a repeating theme here of interest across the board and 
appreciate you all sharing your stories.
    I am from the State of West Virginia, which we have a 
vested interest in wildlife conservation. Our State motto is 
Wild and Wonderful, and we want to keep it that way, and a lot 
of that has to do with the tourism industry and the beautiful 
species that we have all throughout the State of West Virginia.
    We have had many experiences with the Endangered Species 
Act; some of them positive and some of them not so positive. 
But I believe we are working together to create the balance of 
conservation with economic development.
    West Virginia has had numerous success stories in 
recovering listed species, and also preventing species from 
being listed in the first place but couldn't do it without the 
men and women of our Department of Natural Resources. They have 
been instrumental in now working to delist species, ranging 
from the bald eagle to the northern flying squirrel, and I 
appreciate their efforts.
    Mr. Kennedy, my first question was going to be on the 
coordinating aspect, but I think we have pretty much covered a 
lot of that. We have a very strong relationship with our 
regional office, but they come to our State to get our view, 
like you said, Mr. McCormick, of what is actually happening on 
the ground, talking to our botanists, our animal experts, our 
data bases and our technical know-how on how to implement, so I 
am going to kind of fast forward here because of our strong 
relationship that we have with our Northeast region and Region 
5, we have had numerous projects working together in 
assessments. So, I am not going to ask you to repeat the 
productive relationship, although it is probably, in this day 
and age, worth repeating the productive mutual relationship.
    You touched, Ms. Dohner, on one of the things that we run 
into in our State a lot with our local DNR or local projects 
that are moving forward, whether it be timbering in particular 
or any kind of exploration, energy exploration. Our Fish and 
Wildlife folks are so strapped in terms of resources and time 
and amount of people that are actually able to help in this 
coordinating capacity.
    Mr. Kennedy, have you run into that, where your timelines, 
your deadlines get so lengthy and long, and a lot of it has to 
do with Fish and Wildlife just doesn't have enough people on 
the ground to be able to go through these permitting processes?
    Mr. Kennedy. Madam Chair, thank you for the question. I 
have seen that. We have seen that in Wyoming and throughout the 
country as we work through the association of fish and wildlife 
agencies. We come together a couple times a year as committees 
and talk about these issues, and capacity and time management 
and funding are real. It is a concern.
    Senator Capito. Mr. McCormick, did you want to speak on 
that issue?
    Mr. McCormick. I am sure that we are strapped financially 
in the State of Mississippi and could use more funds for our 
wildlife service. They do a great job with the resources that 
we have, and I just appreciate the working relationship that we 
have with those groups.
    Senator Capito. I am going to phrase the question a bit 
differently, since you have experience in this field.
    When it comes to a resource challenge within the Department 
of Fish and Wildlife, how do you prioritize when you do have 
these strapped resources? Are you going to something that has 
maybe a seasonal impact, if we can't timber past November or 
December, so we need this decision before that? How do you 
figure that out when you have difficulty meeting all the 
challenges?
    Ms. Dohner. Thank you for the question. Some of it relates 
to the way you raised the question as far as do we have actions 
that are going to happen and impact a bird before it nests. So, 
we could possibly expedite those so that we ensure that the 
actions are completed, and then the bird can successfully nest. 
You also have to look across the board as far as what the 
priorities are and how you are impacting those on the lands.
    For the manatee example that I gave, I knew that that was a 
priority because we basically shut down a lot of businesses. 
Nobody could build docks; nobody could go out in certain areas 
to go boating; no recreational opportunities. We knew we had to 
focus on that, and we knew we had to figure out a way to do it.
    So, you look at different things when you are prioritizing, 
ma'am.
    Senator Capito. Right.
    Well, I thank you all very much. I think this concludes our 
hearing.
    If there are no more questions for today, members may also 
submit follow up questions for the record. The hearing record 
will remain open for 2 weeks.
    I want to thank the witnesses for your time and testimony, 
and this hearing is adjourned. Thank you.
    Ms. Dohner. Thank you.
    [Whereupon, at 11:38 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
   
    
    
    
                                 <all>
</pre></body></html>
